f-

I

£949
In the Supreme Court of the United States
filed

In re Henryk S. Borecki, Petitioner

JUL 2 0 2021
V.

3£SSSS£SSaSK

United States Department of Homeland Security
&

Arizona Department of Transportation

On Petition for a Writ ofMandamus
to the Secretary ofHomeland Security and the Governor ofArizona

Petition for Writ of Mandamus

Henryk S. Borecki
Pro Se
Susan DiFrancesco
Wife, Representative & Witness
,16220 N. 7th St., #1374
Phoenix, Arizona 85022
602-942-2965

QUESTION PRESENTED
In addition to the questions presented in the companion
petitions for a writ of certiorari and a writ of habeas corpus,
this petition for a writ of mandamus sets forth as follows:
Whether this court should issue a writ of mandamus in
order to immediately expedite the issuance of petitioner’s
long-delayed REAL Travel ID, in advance of the new
deadline, insofar as the petitioner has dutifully presented
complete and authentic documentary evidence of his
biological and national identity and origin, and his
naturalized citizenship, to the federal and state authorities
implementing the Congressional command of the Real ID
Act of 2005?

1

TABLE OF AUTHORITIES

The same authorities, statutes and regulations set forth
in the companion petition for a writ of certiorari are
incorporated herein.
Petition for Writ of Mandamus
The petitioner, Henryk S. Borecki, respectfully presents
a supplemental petition for a writ of mandamus, directed to
the United States Secretary of Homeland Security, currently
Alejandro Mayorkas, and the Governor of Arizona, currently
Doug Ducey, to be evaluated and reviewed concurrently with
the underlying judgments of the United States Court of
Appeals for the Ninth Circuit and the District Court of
Arizona, numbered and dated respectively as Appeal No. 2115572, March 29, 2021, and Civil action No. CV21-00415PHX-MTL, March 10, 2021, inasmuch as this petition shares
a common nucleus of operative facts with the companion
petition for a writ of certiorari, for a review of those
proceedings, and is such as would be expected to be
reviewed during the same deliberative process.
Opinions Below
The orders of the court of appeals for the Ninth Circuit
and the district court of Arizona are not published, but are set
forth in the appendix to the companion petition for the writ of

2

certiorari. There are no written or published decisions by the
underlying administrative federal and state agencies.
Jurisdiction
The plaintiffs complaint was dismissed by the District
Court on March 22, 2021. The appellant’s appeal was
dismissed by the Ninth Circuit on April 14, 2021. The
petitioner’s request for a review of these decisions was
promptly filed within the time for relief and within the
jurisdiction provided by 28 U.S.C. 1254(1). Supplemental
jurisdiction of this petition for mandamus is provided by 28
U.S.C. 1651(a).
Statutory Provisions Involved
Reprints of the Real ID Act of 2005 and the original
False Claims Act are included in the appendix to the
companion petition for a writ of certiorari.
STATEMENT
In conformity with Rule 20.1, and in further
amplification of the reasons why supplemental relief is
appropriate, the petitioner would state as follows:
1. In aid of the Court’s appellate jurisdiction, the
supplemental writs, if prudentially warranted on the merits,
would immediately provide the declaratory and injunctive
relief—prior to the upcoming deadline — without further
extending litigation on an uncomplicated, uncontested, and
3

indisputable fact, to wit: the petitioner’s identity and
citizenship.
2. These are the exceptional circumstances warranting
the exercise of these powers:
a. the failure of the state authorities to scan and to
copy the very identification documents which were
presented;
b. the failure of the state authorities to provide
even a short and simple hearing to the petitioner;
c. the imposition of an additional requirement on
the petitioner, to make and obtain false and fraudulent
documentation; and
d. the refusal of the federal authorities, in charge
of the supervision of the joint federal-state program, to
intervene during this injustice and to prevent a denial of civil
rights.
3. Although adequate relief was requested by the
petitioner as a complainant and as an appellant, the
underlying courts denied and ignored addressing the merits
of the controversy in order to correct this injustice.
4. Within the ambit of the Clerk’s guidance, and
pursuant to Rules 10 and 14.1(h), and for the further
edification of the reader, the petitioner states the supporting
argument as follows:
The decisions of the court of appeals and the district
court, and the actions and non-actions of the Department of
the Homeland Security and the Arizona Department of
4

Transportation — in avoidance and evasion of the principles
of Rule 10(a) — have so far departed from the accepted and
usual course ofjudicial proceedings by failing to examine
and by failing to make a factual inquiry into the documentary
evidence supplied, ab initio, with the complaint and the
memorandum to the complaint, and demanded by the very
congressional statute which governs the procedures for
identification in this matter, so as to call for an exercise of
this Court’s supervisory power. Chief Justice John Marshall
simplified the questions, appropriately and elegantly, in the
following capsulization:
In the order in which the court has viewed this subject, the
following questions have beeen [sic] considered and decided.
1st.

Has the applicant a right to the commission he demands?

2dly. If he has a right, and that right has been violated, do the
laws of this country afford him a remedy?
3dly. If they do afford him a remedy, is it a mandamus issuing
from this court?
Marburyv. Madison, 5 U.S. (1 Cranch) 137, 154 (1803).

5

Petitioner’s Answers under Declaration
to the Factual Questions on Form AO 242 (Rev. 09/17)
These are the petitioner’s answers, under declaration, to the factual
questions on Form AO 242:
1.

Henryk S. Borecki.
No other names have been used.

2.

United States of America and its States and Territories
16220 N. 7th St., #1374, Phoenix, Arizona
My identification numbers are:
SSN
-8360
SSN ■■■-■■-6740
IL B620-3375-3107
TX 05028048
AZD01249522
TX 02657500
IL 3123794

04-14-53
YC 763040
CE 347897
A g gg4 934
8460198
8463026
A 3561818
3.

E Federal authorities E State authorities E Other
Will not give REAL Travel ID to petitioner.

4.

E Other (explain): [Apr 27, 2021. DHS]
“The deadline is now postponed until May 3, 2023.”

5.

Decision or Action You are Challenging:
0 The lack of REAL Travel ID — without a hearing — after
presenting all of the aforementioned identification numbers to
federal and state authorities.

6.

More information and detail:
January 16, 2020:
January 24, 2020:
December 14, 2020:
March 10, 2021
March 22, 2021
March 29, 2021
April 14, 2021:

Interview at ADOT
Request for ADOT hearing
Request to DHS General Counsel
Civil action No. CV21-00415-PHX-MTL
“failure to state a claim for relief’
Appeal No. 21-15572
“dismissed for lack of jurisdiction”

6(d): Still no REAL Travel ID.

6

7.

Your Earlier Challenges of the Decision or Action:
Yes 0 Appeal

8.

Yes 0 Grievance Yes 0 Administrative

Did you file a second appeal to a higher authority, agency or court?
0 Yes

9.

Did you file a third appeal?
0 A fourth appeal: to this Court.

10.

0 No 28 U.S.C. 2255 motion

11.

0 No Immigration Proceedings

12.

0 No other appeals

13.

Grounds for Your Challenge in This Petition:
As a citizen of the United States of America, petitioner is entitled to
interstate domestic travel within the jurisdiction of this nation, just like
everyone else who has already obtained a REAL Travel ID.

14.

Any other grounds?
0 No

15.

State exactly what you want the court to do:
The same thing that petitioner requested in the first place on
January 16, 2020, from the administrative agency, to wit: issue Travel
ID. In addition, the petitioner requests the special damages delineated in
the complaint, and a published opinion by this Court, if warranted.
Declaration Under Penalty of Perjury

I, Henryk S. Borecki, declare under penalty of perjury, that I have read this
petition, and the information in this petition is true and correct. I understand that a
false statement of a material fact may serve as the basis forprosecutionfor
PeriulY
Henryk S. Borecki
Petitioner

Dated: September 17, 2021

7

